<html>
<title> - EXAMINING U.S. EFFORTS TO COMBAT HUMAN TRAFFICKING AND SLAVERY</title>
<body><pre>[Senate Hearing 108-639]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-639
 
     EXAMINING U.S. EFFORTS TO COMBAT HUMAN TRAFFICKING AND SLAVERY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,

                    CIVIL RIGHTS AND PROPERTY RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2004

                               __________

                          Serial No. J-108-86

                               __________

         Printed for the use of the Committee on the Judiciary





















                 U.S. GOVERNMENT PRINTING OFFICE

96-285                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001

















                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

   Subcommittee on the Constitution, Civil Rights and Property Rights

                      JOHN CORNYN, Texas, Chairman
JON KYL, Arizona                     RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    EDWARD M. KENNEDY, Massachusetts
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
                  James C. Ho, Majority Chief Counsel
               Robert F. Schiff, Democratic Chief Counsel


















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
    prepared statement...........................................    94
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    31
    prepared statement...........................................   109
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     4
    prepared statement...........................................   110
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   112
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................    34

                               WITNESSES

Dougherty, Sister Mary Ellen, Conference of Catholic Bishops, 
  Washington, D.C................................................    13
Mattar, Mohamed Y., Co-Director, The Protection Project, Paul H. 
  Nitze School of Advanced International Studies, Johns Hopkins 
  University, Washington, D.C....................................    20
Mettimano, Joseph, Child Protection Policy Advisor, World Vision, 
  Washington, D.C................................................    16
Patten, Wendy, Advocacy Director, Human Rights Watch, Washington, 
  D.C............................................................    24
Shelby, Michael, U.S. Attorney, Southern District of Texas, 
  Houston, Texas.................................................    10
Song, Charles, Staff Attorney, Coalition to Abolish Slavery & 
  Trafficking, Los Angeles, California...........................    21
Sutton, Johnny, U.S. Attorney, Western District of Texas, San 
  Antonio, Texas.................................................     7

                         QUESTIONS AND ANSWERS

Responses of Mohamed Y. Matter to questions submitted by Senator 
  Durbin.........................................................    39
Responses of Johnny Sutton and Michael Shelby to questions 
  submitted by Senators Cornyn, Durbin and Feingold..............    43
Responses of Sister Mary Ellen Dougherty to questions submitted 
  by Senator Durbin..............................................    91

                       SUBMISSIONS FOR THE RECORD

Dougherty, Sister Mary Ellen, Conference of Catholic Bishops, 
  Washington, D.C., prepared statement...........................    98
Mattar, Mohamed Y., Co-Director, The Protection Project, Paul H. 
  Nitze School of Advanced International Studies, Johns Hopkins 
  University, Washington, D.C., prepared statement...............   114
Mettimano, Joseph, Child Protection Policy Advisor, World Vision, 
  Washington, D.C., prepared statement...........................   126
Patten, Wendy, Advocacy Director, Human Rights Watch, Washington, 
  D.C., prepared statement.......................................   131
Shelby, Michael, U.S. Attorney, Southern District of Texas, 
  Houston, Texas, prepared statement.............................   136
Song, Charles, Staff Attorney, Coalition to Abolish Slavery & 
  Trafficking, Los Angeles, California, prepared statement and 
  attachment.....................................................   142
Sutton, Johnny, U.S. Attorney, Western District of Texas, San 
  Antonio, Texas, prepared statement.............................   153






















     EXAMINING U.S. EFFORTS TO COMBAT HUMAN TRAFFICKING AND SLAVERY

                              ----------                              


                        WEDNESDAY, JULY 7, 2004

                              United States Senate,
       Subcommittee on the Constitution, Civil Rights, and 
        Property Rights, of the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. John Cornyn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cornyn, Feingold, Schumer and Durbin.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Chairman Cornyn. This hearing of the Senate Subcommittee on 
the Constitution, Civil Rights and Property Rights shall come 
to order.
    I first want to thank Chairman Hatch for scheduling today's 
hearing, and also the distinguished Ranking Member of this 
Subcommittee, Senator Feingold, and his staff for working with 
us to make this hearing possible.
    This Subcommittee is expressly chartered to oversee both 
constitutional and civil rights issues across America. Just 
last month, for example, the Subcommittee examined the 
pervasive problem of hostility to religious expression in 
public squares across America, and I think the hearing was 
beneficial regardless of whether you perceive there to be a 
problem or not.
    Today's hearing will examine U.S. efforts to combat human 
trafficking and slavery across America. As we continue to fight 
to protect the American way of life in our war against 
terrorism, we have also been fighting another war to protect 
American ideals and principles, a war against an old evil--
human trafficking and slavery.
    Most Americans would probably be shocked to learn that the 
institutions of slavery and involuntary servitude, institutions 
that this Nation fought a bloody war to destroy, continue to 
persist today, not just around the world, but indeed hidden in 
communities across America.
    It has been nearly two centuries since the abolition of the 
trans-Atlantic slave trade, and well over a century since the 
ratification of the 13th Amendment. Yet, to this day, men, 
women and children continue to be trafficked into the United 
States and coerced into lives of forced labor and sexual 
slavery. The stories they tell are tragic, disturbing and 
heart-rending, and the acts that they endure are not just 
unconstitutional, not just criminal, but profoundly evil.
    Today, we will hear tales of human suffering from across 
America. The experiences that we will hear recounted amount to 
a modern-day form of slavery. The stories are not easy to hear, 
but we must hear them and we must face up to them if we are to 
finish the work of the 13th Amendment and truly expel the 
institution of slavery from our midst.
    We will hear the witnesses' testimonies, and then we will 
learn what the administration has been doing in this area. 
Specifically, we will examine the Justice Department's efforts 
to protect the victims of human trafficking and slavery, to 
punish the evildoers, and to prevent other innocent human 
beings from ever having to suffer the same fate.
    On March 21, 2001, Attorney General John Ashcroft announced 
the creation of a comprehensive Justice Department initiative 
to combat human trafficking in America. Since that 
announcement, the Department has undertaken an aggressive 
campaign to eradicate slavery in America, an effort led by the 
Civil Rights Division and joined by other components within 
Main Justice, as well as U.S. Attorneys across the country.
    The 13th Amendment states, and I quote, ``Neither slavery 
nor involuntary servitude . . . shall exist within the United 
States or any place subject to their jurisdiction.'' This is a 
unique provision in our Constitution. Many constitutional 
amendments protect individual rights against actions by 
Federal, State and local governments. Other amendments alter 
the structure of government.
    But the 13th Amendment is different. It protects 
fundamental human rights by abolishing an entire institution of 
society. The 13th Amendment is unique because under it, slavery 
and involuntary servitude cannot exist in public and private 
spheres alike.
    Yet, the institution of slavery continues to exist even 
today. In communities across America, human beings are 
trafficked, literally bought and sold into lives of forced 
labor or sexual slavery. The trafficking of human beings is 
evil, immoral and wrong. Yet, most Americans are unaware of 
even its existence, let alone its magnitude.
    According to some estimates, approximately 800,000 human 
beings are bought, sold, or forced across the world's borders 
each year. Moreover, Americans may be particularly alarmed to 
learn that at least 15,000 human beings are trafficked into 
lives of slavery in the United States each year. Indeed, 
according to some estimates, that number could be as high as 
50,000 a year.
    We cannot grasp the true, horrifying nature of human 
trafficking and slavery with numbers alone. We must not simply 
count the victims; we owe it to them to hear their stories.
    Just recently, the Justice Department obtained convictions 
in the largest labor trafficking case it has ever prosecuted. 
Kil Su Lee, a Korean businessman, transported over 200 workers 
from China and Vietnam to the United States. He detained them 
and forced them to work in his American Samoa garment factory 
under slave-like conditions, enforcing his will by ordering 
beatings by his henchmen using sharpened pipes, florescent 
lights, chairs and fists. Civil Rights Division attorneys 
successfully prosecuted Mr. Lee and his partners under the 
Federal criminal slavery and peonage statutes. Mr. Lee's 
sentencing is pending, and two of his thugs are already serving 
substantial time.
    Consider another tragic example, this one from my home 
State of Texas. An international trafficking operation known by 
local prosecutors as the Molina organization promised young 
women a better life and employment in the United States as 
either housekeepers or waitresses in restaurants in the Fort 
Worth area. Once they arrived in the area, however, they were 
coerced into lives of prostitution and forced labor. More than 
200 young women were trafficked from Honduras into the United 
States by this operation.
    The U.S. Attorney's office in the Northern District of 
Texas, working in conjunction with the Civil Rights Division, 
shut down the operation by bringing charges against nine 
defendants. Six defendants eventually pled guilty, while three 
others are fugitives from justice.
    I recently received a letter from the Justice Department 
detailing numerous examples of forced labor and sex slavery 
cases across the country, from California to Maryland, Hawaii 
to New Jersey, Georgia to New Hampshire. Without objection, 
that letter will be made part of the record.
    We are honored to have before the Subcommittee today two 
distinguished U.S. Attorneys from Texas who will bring tragic 
tales to tell from their respective districts. We also have a 
distinguished panel that will address many other aspects of 
this problem and what we need to do or need to be doing better 
in America to combat it.
    Thankfully, the Congress and the administration have been 
working closely together in recent years to combat this 
scourge. Congress has enacted the Trafficking Victims 
Protection Act of 2000 to strengthen Federal criminal slavery 
statutes, to provide victims with basic human needs so that 
they can begin down the road to recovery and encourage their 
cooperation with law enforcement so that others will not suffer 
a similar fate. Just last fall, we enacted legislation to 
reauthorize and strengthen that Act.
    The administration has responded to the call by 
dramatically increasing efforts and devoting substantially more 
resources toward combating human trafficking. Under the Civil 
Rights Division, the Justice Department has prosecuted and 
convicted three times the number of traffickers over the past 
three fiscal years as in the preceding 3 years.
    The Department has created the Office of Special Counsel 
for Trafficking Issues to coordinate anti-trafficking efforts, 
published educational and awareness-raising materials and 
circulated them to officials across America, and provided 
assistance to victims by installing a toll-free hotline. In 
addition, the Department has already established State and 
local task forces in Philadelphia, Atlanta, Phoenix and Tampa 
to coordinate anti-trafficking efforts of Federal, State and 
local governments and non-governmental organizations in those 
areas.
    Clearly, the Department realizes that the support of local 
officials in government and in the private sector alike is 
absolutely essential to any successful effort to uncover the 
evil of human trafficking and slavery that are so carefully 
hidden in pockets across America. I look forward to working 
with the Department to begin establishing such task forces in 
the State of Texas later this year.
    Next week, the Justice Department is sponsoring a historic 
national conference on human trafficking in Tampa, Florida, 
bringing together Federal, State and local officials, social 
service agencies and NGOs to provide training for coordination 
of anti-human trafficking efforts across the country, as 
provided in the fiscal year 2004 appropriations bill.
    I also applaud Congress--by the way, a Congress that I was 
not yet a part of--for recognizing this problem. Today's 
hearing is certainly not the first Congressional hearing to 
bring attention to the deeply disturbing problems of human 
trafficking, and it should not be the last. My colleagues and I 
must continue to vigilantly monitor this situation and to 
consider whether further legislation is necessary to bolster 
the Department's efforts.
    For example, if further improvements to our Federal 
criminal slavery and peonage statutes would assist prosecutors 
and facilitate legitimate prosecutions, so be it. If Federal 
legislation is needed to ensure that immigration T visas and 
other important and compassionate protections are provided to 
true victims of human trafficking and slavery, let's do it.
    If more State laws are necessary to ensure that Federal 
efforts are accompanied by robust efforts at the local and 
State level, let's encourage it. My home State of Texas, as 
well as the States of Washington and Florida, have led the way 
by enacting State criminal laws against human trafficking. 
Other States might consider joining the cause.
    Human traffickers peddle in human misery. They smuggle 
innocent human beings into this country and condemn them to 
lives of forced labor or sex slavery. For a countless number of 
victims, the American dream quickly became an American 
nightmare. Such tales of human suffering should not exist 
anywhere in the world, and especially not in the United States 
of America.
    The American commitment to eradicating human trafficking 
and, slavery from our midst is a solemn vow, reflecting the 
highest traditions of our Founding Fathers and the drafters of 
the 13th Amendment. It is a commitment to the principles of 
freedom and liberty that Americans have fought and died for, a 
commitment that Americans across the Nation commemorated just a 
few short days ago. And it is a profoundly moral commitment not 
just to punish violators of our criminal laws, but to repel an 
assault on our Nation's core beliefs about the fundamental 
worth and dignity of every human being.
    With that, I will be glad to recognize the distinguished 
Ranking Member of this Subcommittee, Senator Feingold.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman, and I thank you 
for holding this hearing on human trafficking and the U.S. 
Government's efforts to combat this deplorable practice. I look 
forward to hearing from our distinguished witnesses about the 
work they are doing to prosecute traffickers, provide services 
to victims, and raise awareness of this issue.
    Human trafficking is one of the more pernicious violations 
of global human rights. It is also one of the fastest growing 
areas of international criminal activity. According to its 2004 
Trafficking in Persons report, the State Department estimates 
that 600,000 to 800,000 victims of human trafficking are 
transported across international borders each year.
    Estimates of the number of people trafficked in the United 
States each year range from 14,500 to 17,500. Victims of 
trafficking include men, women and children who are trafficked 
for forced farm labor, domestic servitude, sweat shop labor, 
forced prostitution, construction work, restaurant work, or 
adoption.
    The U.S. Department of Justice, as well as State and local 
law enforcement, are confronting this international human 
rights problem by prosecuting traffickers and providing 
services to victims. I look forward to exploring these efforts 
with the witnesses today.
    Mr. Chairman, I am pleased to see a bipartisan effort to 
confront human trafficking and a commitment to this issue by 
both the current Bush administration and the Clinton 
administration. I also think that we cannot review our 
Government's efforts in this area without recognizing the 
contributions of the late Senator Paul Wellstone.
    I know this was an important issue to my dear friend and 
colleague and his wife, Sheila. Senator Wellstone was one of 
the first legislators to recognize this escalating abuse of 
human rights, just as the U.S. Government and international 
organizations were beginning to identify trafficking in human 
beings as a serious international problem.
    Senator Wellstone brought his unique passion, zeal and 
integrity to this issue. His efforts culminated in a resolution 
introduced in 1998 calling human trafficking a global human 
rights problem, and directing the State Department to review it 
and report to the Congress on its findings.
    Senator Wellstone continued his efforts in 1999 by 
introducing the first comprehensive anti-trafficking bill in 
Congress. Working with his colleague, Republican Senator 
Brownback, his efforts resulted in enactment of the Victims of 
Trafficking and Violence Protection Act in 2000. That law, I 
believe, is one of Senator Wellstone's greatest achievements 
and one of the most important pieces of his legacy to our 
Nation and to unknown numbers of victims of trafficking for 
years to come. I was proud to support both pieces of 
legislation. I know Senator Wellstone would welcome our efforts 
today to explore a human rights problem he was so passionate 
about years ago.
    President Clinton also recognized the horror of this global 
human rights abuse and the need for the United States to make 
every effort to combat human trafficking. In March 1998, 
President Clinton issued a directive establishing a U.S. 
Government-wide anti-trafficking strategy to prevent human 
trafficking, prosecute traffickers, and protect and support 
victims.
    The Clinton administration suggested the need for programs 
to increase economic opportunities for potential victims, 
legislation to provide services to victims, and increased 
penalties for traffickers. Additionally, the Clinton 
administration created the Workers Exploitation Task Force, 
chaired by the Justice Department's Civil Rights Division and 
the Labor Department's Solicitor's office, which was charged 
with investigating and prosecuting cases of exploitation and 
trafficking.
    The State Department spearheaded the creation of a database 
on U.S. and international legislation on trafficking. And, of 
course, the Clinton administration worked with Congress on 
legislation to combat trafficking, culminating in the passage 
of the victims of trafficking law in 2000.
    I am pleased that President Bush has continued this 
commitment to combatting human trafficking. I hope we can 
continue to work in a bipartisan fashion. I look forward to 
hearing from our witnesses on how effective our efforts have 
been in fighting this global human rights menace and what 
suggestions they might have for making improvements.
    Thank you again, Mr. Chairman.
    Chairman Cornyn. Thank you, Senator Feingold, and thank you 
for mentioning the contribution of Senator Wellstone to this 
important effort. This is something that we can all agree on, 
regardless of political affiliation or other stripe. This is 
something we need to work on together, and indeed we have and 
we will continue to do so.
    The members of the panel have already taken their seats, 
and we are pleased to have a distinguished panel of government 
officials and representatives of non-governmental organizations 
with us today. They will discuss their views and experiences on 
U.S. efforts to combat human trafficking and slavery.
    I will introduce the panel and I will give them each 5 
minutes to make an opening statement. Of course, any longer 
written remarks that you may have will be made a part of the 
record. If you will try your best to confine it roughly to 5 
minutes, we will have rounds of ten minutes of questioning each 
per member of the Committee, and depending on how many of our 
colleagues show up, we may have more than one or two rounds, 
depending on how we go from there.
    First, we are honored to have before the Subcommittee two 
distinguished U.S. Attorneys from my State, both distinguished 
graduates of the University of Texas Law School and both of 
whom have overseen prosecutions of disturbing cases of human 
trafficking within their districts.
    Johnny Sutton is the U.S. Attorney for the Western District 
of Texas, which encompasses San Antonio, El Paso and Austin, a 
huge chunk of Texas. He previously served as an Associate 
Deputy Attorney General at the Justice Department as Policy 
Coordinator for the Bush-Cheney transition team assigned to the 
Department of Justice, and as the Criminal Justice Policy 
Director for then-Governor George W. Bush. He is a longtime 
prosecutor, having served in the Harris County District 
Attorney's office for 8 years.
    Michael Shelby is the U.S. Attorney for the Southern 
District of Texas, another large district that covers Houston, 
Brownsville, Laredo, Corpus Christi and Huntsville. He, too, is 
a career prosecutor, having worked for 5 years in the Harris 
County district attorney's office before becoming a U.S. 
Attorney in Phoenix, Arizona, as well as Houston. He is also a 
commissioned officer in the U.S. Naval Reserve who served 
during Operation Desert Storm and most recently in Bosnia.
    We are honored today to hear testimony from representatives 
of five non-governmental organizations, individuals with 
experience and expertise in this area.
    Sister Mary Ellen Dougherty is the program manager for 
outreach, education and technical assistance in the trafficking 
in persons program operated by the U.S. Conference of Catholic 
Bishops and its Office of Migration and Refugee Services. She 
is a frequent speaker and writer on this subject, most recently 
before the U.S. Embassy to the Holy See in Rome just last 
month.
    Joseph Mettimano is the child protection policy advisor at 
World Vision. He also serves as the director of World Vision's 
Child Sex Tourism Prevention Project. World Vision is one of 
the largest Christian relief and development organizations in 
the world with operations on six continents, all devoted to the 
protection of children. Before joining World Vision, Mr. 
Mettimano served as deputy director of public policy and 
advocacy for the United States' arm of the United Nation's 
Children's Fund, or UNICEF USA.
    Dr. Mohamed Mattar is an adjunct professor of law and co-
director of The Protection Project. The Protection Project is a 
legal human rights research institute based at Johns Hopkins 
University's School of Advanced International Studies. Dr. 
Mattar has taught courses on human rights and human trafficking 
law, and has published several articles in the area. He holds 
numerous law degrees from universities in the United States as 
well as Egypt.
    Charles Song is a staff attorney with the Coalition to 
Abolish Slavery and Trafficking based in Los Angeles. CAST, as 
it is called, provides legal services to combat human 
trafficking. Mr. Song previously served as a human rights 
fellow and staff attorney at the Center for Human Rights and 
Constitutional Law.
    Our final panel member is Wendy Patten, the U.S. advocacy 
director at Human Rights Watch. She has worked on human 
trafficking issues at the U.S. Department of Justice, where she 
served as special counsel for trafficking in persons in the 
Civil Rights Division, chief of staff in the Violence Against 
Women Office, and senior counsel in the Office of Policy 
Development. She has also served as director of multilateral 
and humanitarian affairs at the National Security Council in 
the White House.
    Thank you all for being here and for your commitment to 
combatting human trafficking and slavery. I would like to now 
ask each of you to start with your opening statements. Mr. 
Sutton, I will recognize you first for that purpose.
    Let me remind each of the panelists you have a microphone 
with a button it and when the button is lit, that means we can 
hear you. So, please punch the button.

    STATEMENT OF HON. JOHNNY SUTTON, U.S. ATTORNEY, WESTERN 
             DISTRICT OF TEXAS, SAN ANTONIO, TEXAS

    Mr. Sutton. Good afternoon, Mr. Chairman and members of the 
Subcommittee. Thank you for the invitation to discuss this 
important topic, the horrible crime of human trafficking.
    It is important to distinguish at the beginning the 
difference between the crime of human trafficking and the more 
common crime of human smuggling. Trafficking is a particularly 
brutal offense because it involves the treatment of human 
beings as commodities who are forced to work in deplorable 
conditions in factories, fields, and sometimes as commercial 
sex workers. Trafficking in persons is not a crime, it is a 
violation of the most basic human rights.
    It has been reported that some 15,000 people are trafficked 
into the United States each year. The trafficking profits feed 
organized crime, and trafficking is linked to a wide variety of 
criminal activities, including document fraud, money 
laundering, prostitution and drug trafficking.
    The Department of Justice has made the investigation and 
prosecution of human trafficking a top priority, and our effort 
has been greatly enhanced by the efforts of Congress. I want to 
thank you all especially for all you have done to improve our 
ability to prosecute these cases.
    Congress' passage of the Trafficking Victims Protection Act 
of 2000, the TVPA, essentially did three things. First, it 
provided a range of new protections and assistance for victims 
of trafficking. Second, it expanded the crimes and enhanced 
punishments that are available to Federal investigators and 
prosecutors to go after these traffickers. And, third, it 
expanded U.S. activities internationally to prevent victims 
from being trafficked in the first place.
    Mr. Chairman, as you know, last year President Bush signed 
into law the Trafficking Victims Protection Reauthorization Act 
of 2003. This new law not only reauthorized the 2000 Act; it 
improved it by mandating new information campaign to combat sex 
tourism and added a new civil action provision that now allows 
trafficking victims to sue traffickers in Federal court.
    The TVPRA also requires that the Attorney General report to 
Congress every year on the U.S. Government's efforts to combat 
trafficking. The first report was submitted in May of this year 
and included details of information on what the U.S. Government 
has done in the past year to address this problem. In a moment, 
my colleague, Mike Shelby, will provide a summary of the 
Department's recent activities in this area.
    As United States Attorney in a district that shares over 
600 miles of border with Mexico, I have seen firsthand how 
traffickers prey on the most vulnerable and desperate victims. 
Coyotes or the smuggling rings that they work for have long 
exploited the remote and informal crossings on the Rio Grande 
River. For years, a large number aliens have entered into the 
U.S. through these remote regions and then traveled to other 
parts of the country.
    In recent years, it has become increasingly evident that 
significant numbers of these aliens face the risk of physical 
harm trying to enter the U.S. These aliens face not only harsh 
weather and terrain, but unsafe vehicles and reckless drivers. 
They are also increasingly held hostage to the payment of high 
smuggling fees, in some cases being forced into virtual slavery 
as farm workers and prostitutes.
    To address this problem, my office has joined with 30 other 
entities in central Texas, as well as the Homeland Security 
Department, to create the Coalition Against Human Trafficking. 
This is an informal group that meets monthly and it is made up 
of law enforcement agencies, social service providers and other 
non-governmental organizations all dedicated to working 
together to provide assistance to victims of these crimes. The 
coalition has recently put on a training conference to train 
people on the intricacies of human trafficking.
    Human trafficking cases are difficult to investigate and 
prosecute, with victims typically unwilling or unable to 
contact the authorities. My district, like every other district 
in the country, has nevertheless made these cases a priority, 
and I am pleased to report that by using the cooperative 
efforts discussed above, we have had at least some successes. I 
would like to briefly talk about two cases from my district to 
highlight what has gone on in some of the cases that we see in 
west Texas.
    The first one is a case that my office prosecuted in 2002 
where an assistant professor, a research assistant at the 
University of Texas at El Paso and his wife would recruit women 
from their home country of Uzbekistan, from their home city, to 
come to the United States under the false pretenses that they 
would receive lucrative jobs as models, that they would live 
extravagant lifestyles, that they would be able to bring their 
families at some later date.
    The defendants in this case obtained visas by falsifying 
what these ladies would be doing, and they were recruited to 
the United States saying they were brought to do scientific 
research at UTEP. But when they arrived in the United States, 
they immediately had their documents confiscated. Many of these 
women did not speak English, were not prepared to live in the 
United States or El Paso, and they were turned into dancers in 
a strip club. They were forced to do that demeaning work, and 
then all the profits derived from having to do that went to the 
two defendants in this case.
    My office was able to prosecute and prove up the 
trafficking in this case. We were able to discover that these 
women were held in a slavery-like situation and prosecute the 
defendants in this case and send them to the Federal 
penitentiary. We were also able to recover--they were fined 
$700,000, which was an enormous profit they were making from 
the money they were taking from these women. Both defendants 
were convicted and sent to Federal prison and ordered to pay 
over $500,000 in restitution to the victims in this case.
    I would like to also briefly cover one other case that 
occurred in Austin, Texas, a town you are familiar with. My 
office, in 2003, convicted a 32-year-old woman of human 
trafficking-related offenses. This woman would go into the 
remote villages in Mexico. She would speak to poor Mexican 
families who had young teenage girls in the house and she would 
convince them that they would take their daughter, take care of 
their daughter, take them to the United States to get them a 
better life. In fact, she went so far as to sign a written 
contract saying that I will care for your daughters. They will 
have a job in my restaurant in the United States. They will pay 
a fee of $1,500.
    When these young girls, two of them age 16 and one of them 
age 17, arrived in the United States, their documents were 
removed. They were immediately forced to have sex for money in 
Austin, Texas. They were held at a location not far from a 
place you may know, the Arboretum, which has a Pottery Barn and 
a Gap. One mile from there, these young Mexican girls were held 
in virtual slavery, being forced to have sex with up to 15 men 
a day for money.
    Eventually, two of them ran away. They were threatened with 
death if they did run away, and when they did, kidnappers went 
out and kidnapped them and brought them back. The only reason 
we found out about it is we got an anonymous 911 call to the 
Austin Police Department and we were able to track back and 
break this case and prosecute that woman who was holding those 
women in bondage and send her to Federal prison.
    These cases are but two examples of a criminal growth 
industry, the true scope of which is still unknown. However, 
through this unprecedented cooperation between Federal, State 
and local governments, we are making significant strides in 
fighting this difficult but important battle. We are committed 
to increasing our efforts in this area and we will do the best 
we can to knock down this terrible problem.
    Mr. Chairman, I thank you for your leadership on this 
issue. I thank you for having this important hearing today and 
I would be happy at the end of our discussion to answer 
questions that you or the other Subcommittee members may have.
    Thank you.
    [The prepared statement of Mr. Sutton appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Mr. Sutton. I appreciate your 
statement.
    Mr. Shelby, if you would give us your statement, please.

   STATEMENT OF HON. MICHAEL SHELBY, U.S. ATTORNEY, SOUTHERN 
               DISTRICT OF TEXAS, HOUSTON, TEXAS

    Mr. Shelby. Thank you, Mr. Chairman. I also want to join my 
colleague, Johnny Sutton, in thanking you for inviting us both 
here to discuss this very significant problem, and to 
personally thank you again for your continued commitment to the 
people of the southern portion of Texas.
    The last two times you and I have spoken a bit in Laredo 
and Brownsville, where you were engaged in a discovery of the 
intricacies of these issues in both human trafficking and in 
smuggling, in general, and I appreciate your concern for all of 
the people in Texas and the United States in that regard.
    As you indicated, in March of 2001 the Attorney General 
announced the creation of an anti-trafficking initiative that 
was designed to fully engage all of the personnel and the 
resources of the Department of Justice and to focus those 
people on this very significant problem area.
    I am pleased to report that in the 3 years since that 
initiative has been underway, the Department of Justice has 
taken some substantial and in some cases some unprecedented 
steps to combat this very difficult problem. For instance, over 
200 new cases have been opened during that 3-year period, and 
that number is particularly significant because it represents a 
two-fold increase over the previous 3-year period.
    110 different defendants have been convicted or charged 
with trafficking-related offenses, which represents a three-
fold increase over the previous 3-year period. Finally, we have 
had 77 convictions, including 59 sex traffic-related 
convictions, that have been obtained by the Department during 
that remarkable 3 years.
    While I think it is easy to point to those results as the 
most tangible results of our commitment, I want to assure you 
that they are by no means the only measure of that commitment. 
Because these cases necessarily involve the most susceptible 
and the most vulnerable of victims, victims who are not likely 
to seek out law enforcement to answer their specific needs, 
they are extraordinarily difficult to identify and distinguish 
from the traditional smuggling-type operations.
    To overcome those obstacles, the Department of Justice has 
significantly increased the training opportunities that are 
made available to local, State and Federal law enforcement 
officials and prosecutors wherever they may find them. In fact, 
you just alluded to an unprecedented conference that will be 
held next week in Tampa, Florida, where the Department is 
bringing in all of the different participants in this 
extraordinary endeavor, bringing in Federal and State 
prosecutors, bringing in local and State police agencies, 
bringing in the extraordinary non-governmental organizations 
that help us in this regard, all to focus on this significant 
problem and come up with a strategy that can help us defeat 
those who would enslave other people.
    That combined approach, as you well stated in your opening 
remarks, is absolutely essential to our success in this effort 
because the Department has overseen the creation of these anti-
trafficking task forces that are presently located in just four 
cities, in Philadelphia, Atlanta, Tampa and Phoenix. With your 
help, they will be extended to dozens more cities in the near 
future, and I am hopeful that your statement was actually a 
promise that Johnny and I will see one of those in Texas, as 
well, that we can benefit from and our colleagues can.
    Lastly, because certainly the most effective way to combat 
this problem is to stop the movement of human beings before it 
ever starts, the Department of Justice has engaged in a round-
the-world effort to send out representatives to the countries 
that act as sources of these people and try to educate and 
train their law enforcement people and their prosecutors in 
ways that they can identify and disrupt the organizations that 
bring about this human trafficking.
    Those efforts are significant, they are substantial, and in 
many ways they are unprecedented. But they are also absolutely 
essential, given the incomprehensible tragedy that the victims 
of these cases suffer. While in my prepared remarks I have laid 
out for you many--in fact, too many examples of the tragedies 
associated with the victims of these cases, I want to share 
with you this afternoon just one of those examples.
    From July 2002 to April 2003, three brothers in south 
Texas--Juan, Armando and Hector Soto--controlled and operated a 
large-scale smuggling operation that was based right there in 
McAllen, Texas. During the nine-month period that we were able 
to identify, these individuals recruited hundreds of people in 
northern Mexico who had come to northern Mexico from all over 
Central and South America all for the purpose of wanting to 
illegally enter the United States.
    For a fee of $1,500, the Soto brothers and their 
organization would cross those people across the Rio Grande 
into southern Texas and then would house them in a trailer 
compound that they had acquired solely and completely for the 
purpose of housing these individuals.
    Once they were there at this trailer compound located near 
Edinburgh, the Sotos would demand additional money from each of 
these smuggled individuals. If you could pay, if you complied 
with their demands for additional money, you were sent on to 
Houston and then wherever else you wanted to go in the United 
States.
    If you could not pay, you were literally held captive at 
that trailer park until they had no further use for your 
labors. People there were forced to work for the various 
members, to cook for them, to clean for them, to do their 
chores, to do their housework, to do all the menial labor 
associated with keeping this organization on track. Most 
significantly, the women that were unable to pay this 
additional extortion fee were forced into forced-labor acts 
with Mr. Soto, his two brothers and their entire crew.
    So throughout their captivity, they were beaten, they were 
sexually assaulted, they were threatened at gunpoint on a daily 
basis with death. In sum, they were enslaved with absolutely no 
chance that they would ever gain their freedom in the land of 
freedom that they had come to.
    So after 36 days of this brutal treatment, one very brave, 
very courageous woman, a Honduran national, attempted to 
contact a neighbor of this trailer park for help. She saw one 
opportunity, she took it, and she was discovered in her 
attempt. She was taken to a remote area in south Texas by six 
men. She was forced to strip naked. She was kicked, she was 
beaten to near death, she was repeatedly raped, threatened with 
death on a number of occasions, and then abandoned in a lonely 
location literally in the middle of nowhere.
    But through her remarkable force of will and her remarkable 
perseverance, she made it to a house, contacted the local 
sheriff's department and set in motion through her outcry on 
February 7 an international, multi-agency, Federal and State 
task force that came together for the purpose of identifying 
what this horrible tragedy was all about.
    So the Hidalgo County sheriff's office, the McAllen P.D., 
the FBI and the Immigration and Customs Enforcement Service all 
came together to find out what the problem was and how they 
could disrupt this organization. Their investigation disclosed 
the full extent of the Soto organization's depravity, and that 
is truly the only word that fits this.
    They discovered four additional women, each of whom had 
undergone a similar fate. They had been forced into labor, they 
had been repeatedly threatened and beaten, and they had been 
repeatedly raped by their captors for their own sexual 
pleasure. It is difficult for anyone, even a career prosecutor 
like me or like Johnny, to imagine a more profound or more 
intentional violation of the dignity of one human being by 
another human being.
    Our office worked extensively with each of the victims of 
that case through our victim witness coordinators to ensure 
that the full nature of their story was brought to the 
attention of the Federal judge when these individuals were 
indicted. As a result of their courage and their ability to 
come forward and tell this horribly embarrassing tale that 
happened to them, six of the seven Soto conspirators were 
sentenced to significant terms of Federal incarceration, and 
the seventh member is a fugitive from justice that we seek 
today.
    Significantly, Juan Soto, who was the leader of the 
organization, was sentenced to 14 years in Federal prison 
without parole, which at that time represented one of the most 
significant sentences for this type of activity. Equally 
significantly, the court used the provisions that you have 
provided to us to order the Sotos to make restitution to all of 
their various victims.
    Mr. Chairman, the trafficking and the enslavement of any 
human being is a direct affront to the dignity of every human 
being. Without doubt, the Soto case illustrates the very worst 
aspects of this very terrible crime. The physical abuse, the 
forced labor, the sexual enslavement aspects--all of those come 
to light in this one terrible case.
    But Soto also illustrates the Department of Justice's 
unshakable commitment to use all of the tools that you and your 
colleagues have given to us to combat this very serious 
offense. We are going to identify, we are going to apprehend 
and we are going to hold accountable all those individuals who 
would subjugate another human being.
    Mr. Chairman, thank you again for this opportunity to 
testify to you and for your commitment to this very serious 
issue.
    [The prepared statement of Mr. Shelby appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Mr. Shelby, for your opening 
statement and for your work, as well as that of Mr. Sutton, in 
investigating and prosecuting these cases.
    Now, as I stated earlier, we have a number of 
representatives of non-governmental organizations to talk about 
their good work in this area.
    At this time, Sister, we would be glad to hear from you.

    STATEMENT OF SISTER MARY ELLEN DOUGHERTY, UNITED STATES 
        CONFERENCE OF CATHOLIC BISHOPS, WASHINGTON, D.C.

    Sister Dougherty. Thank you, Mr. Chairman, and I thank you 
for the opportunity to be here. It is certainly a privilege, as 
it is also a privilege as far as I am concerned to be able to 
work on this global issue.
    I share the enthusiasm of Mr. Shelby and Mr. Sutton for 
what the U.S. Government has tried to do in its efforts to 
combat human trafficking. I have been in this work for not 
quite 2 years, since October of 2000, and I have seen major, 
major strides, and I am grateful for that.
    However, we have one significant failure, and it is a 
steady failure, and that is a failure to identify victims. We 
know, by count, that we have approximately 500 victims 
identified since the law was implemented in 2000. That is not 
the fault of any Federal agency, that is not the fault of any 
one person, but it is a failure to educate our communities and 
to educate ourselves to the discovery of victims.
    That is much of my concern in the work that I do. At the 
United States Conference of Catholic Bishops, I work toward 
education and outreach for human trafficking. We also have 
somebody who works on providing services among our networks for 
adult victims and for child victims.
    Last summer, I was at a wedding in southern Maryland and 
there was a man there whom I have known for about 20 years, but 
did not know him well. He asked what I was doing, if I was 
still teaching, which I had done for years. And I said no; I 
was administering a grant to combat human trafficking. And he 
said to me, my biological mother used to do that. And I said, 
do what? And he said, she trafficked people.
    He went on to tell me about his mother, who was a Mohawk 
Indian, deceased at the time he was talking to me for a few 
years. From the time she was 70 until her death in 1976, she 
picked up Asian women, primarily Chinese women, in Canada. She 
got them across the border through an Indian reservation in the 
trunk of her car and she would deliver at a designated place in 
Albany at $800 a head. A 75-year-old Mohawk woman.
    Whether that would deconstruct into trafficking or 
smuggling, we know, depends on what happened to them when they 
were finally taken to New York. It was Michael's belief that it 
was trafficking, that they were then going to be forced into 
labor until at least they could pay the debt. That is right 
next door to us. That is somebody's mother, and yet we fail to 
see it. So I applaud also the efforts of the Office of Refugee 
Resettlement for rescuing and restoration to help us identify 
victims.
    We have a major concern at USCCB around the area of 
victims, and that is the concern of the child victim. If we 
have approximately--and I say approximately 500 victims because 
we just uncovered, as you know, Justice did, and Homeland 
Security, a large case in Long Island which is another 69 
victims or so.
    But if we have approximately 500 victims, we have only--and 
this is a fact--we have only 34 child victims identified since 
this law was implemented in 2000. Now, 34 child victims 
identified since this law was implemented--if we look at our 
records of the exploitation of children both for labor and for 
sexual purposes across the world, we know that a number of 34 
is absolutely unacceptable. And the failure, again, is a 
failure to identify them.
    So toward that end, we are working for the identification 
of the child victim. We had a major national conference--
attendees were there by invitation only--in Houston at the end 
of April. It was not just for Texas. It was for people from 
across the country, but we capitalized on expertise from Texas, 
so that we had local law enforcement there. We had Border 
Control people, we had Catholic Charities, we had child 
protective services, and we recognized the problem, if we can 
solve it.
    The problem is articulation across the board so that the 
trafficked child is recognized. So problem number one is 
recognizing the trafficked child. The second problem we see 
with the trafficked child is a problem that I think the 
Department of Justice can help us address, and that is 
immediately, when a child is identified as a trafficking victim 
or a probable trafficking victim, bringing in a professional 
child care welfare person, not waiting until the child is 
officially declared eligible, but immediately bringing in 
somebody who will look at the best interests of the child.
    I would like to move on from there, in the interest of 
time, to another concern that we have about trafficking, and 
this is a concern that represents the difference between 
perception and reality, or I might say intent and effect.
    I agree that we have a good law and I agree that we are 
working hard to implement it, and I see a lot of good work and 
a lot of collaborative work between NGOs and the Government. I 
have felt very well-supported by the Department of Justice and 
by other Federal agencies in this work.
    There is a popular perception that human trafficking is 
about sexual exploitation. Any time I get a call from the 
media--and I can tell you I have had three calls from major 
media in the past six weeks wanting information about 
trafficking--they only want to talk about sexual exploitation. 
What they really want me to produce are victims whom they can 
interview.
    I think we need to combat this popular perception. We know 
that there are prosecutions for labor. We have more victims of 
labor trafficking than we have sexual exploitation, although we 
probably have more incidents of sexual exploitation. We need to 
combat this for a lot of reasons and keep the labor piece in 
front so that any time we talk about it, we need to talk about 
it with both prongs.
    I was very pleased last September that President Bush 
mentioned human trafficking in his speech to the UN. However, 
he too mentioned it in the context of sexual exploitation and 
there was no mention of labor there. That is a concern.
    Finally, in closing, I would like to cite one particular 
avenue of improvement I have seen as we have been working on 
this in 2 years, and it concerns the Department of Justice and 
their collaboration with NGOs. When I came on board with this 
work, there was a very concrete tension between NGOs and the 
Department of Justice around prosecution versus victim, and it 
is the right and the responsibility of DOJ to prosecute and it 
is the right and responsibility of NGOs to take care of the 
victims. Sometimes, I thought the twains would never meet.
    I have seen major leaps in the dialogue around that, and I 
have seen the Department of Justice move in the direction of 
being as victim-centered as their role would allow them to be. 
Again, I allude to the conference that is coming up next week 
that is particularly to enable the victims.
    Finally, in closing, I would like to share with you one 
short incident that happened to me a few months ago. I was in 
the Perry Family Health Center here in D.C., in a very, very 
poor neighborhood of Washington, D.C. It is an offshoot of 
Providence Hospital. I have great respect for the work they do 
there with poor neighborhood people of all ethnic communities.
    I was a little early for my meeting. I was going to do a 
training with the medical staff there. I deliberately went 
early so that I could spend a little bit of time in the waiting 
room and get a feel for the place, and I did just that. It was 
a very crowded waiting room and a man from the middle of the 
room looked up and said to me, you have a mission. And I 
stopped; I wasn't expecting that in the middle of the Perry 
Family Health Center.
    Then he said, it is a spiritual mission; I can tell. And 
then I went over and talked to him for a while and I talked to 
him about himself and about his neighborhood, and eventually 
about trafficking. What that says to me any time I come to any 
trafficking event is I think we all have a mission, and I think 
any mission that is the mission of the care of people is a 
spiritual mission. Thank you for the opportunity to participate 
in it.
    [The prepared statement of Sister Dougherty appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Sister Dougherty. I appreciate 
that very much.
    Ms. Dunham [audience participant.] I am a victim, okay, and 
I want to present this.
    Chairman Cornyn. It is out of order at this time.
    Ms. Dunham. I really don't want to stop you, but--
    Chairman Cornyn. We need to proceed to hear from the rest 
of the panel.
    Ms. Dunham. I have been a victim of this Government. The 
Government has used me. This isn't a planned thing because I 
truly--I want to put this under oath that the letter I have 
right here is true. And I don't want to be on the camera 
because that is not my point. And I do think--
    Chairman Cornyn. This hearing will stand in recess until 
the police can restore order.
    [The Subcommittee stood in recess from 2:55 p.m. to 3:02 
p.m.]
    Chairman Cornyn. The hearing will come back to order. I 
apologize for the disruption. I trust that the woman will get 
the help that she needs if, in fact, she needs help. We wish 
her well, but obviously no one should be disrupting hearings in 
the Senate Judiciary Committee or anywhere else. But, we will 
wish her well.
    Mr. Mettimano, we were coming to you. So, if you would care 
to go ahead with your opening statement, I would appreciate it.

STATEMENT OF JOSEPH METTIMANO, CHILD PROTECTION POLICY ADVISOR, 
                 WORLD VISION, WASHINGTON, D.C.

    Mr. Mettimano. Thank you, Mr. Chairman, and I would like to 
thank you and the Subcommittee for inviting me to participate 
in this important hearing. It is a great encouragement to see 
this issue be made a priority of this Subcommittee.
    My name is Joseph Mettimano and I serve as the child 
protection policy advisor with World Vision. World Vision is a 
54-year-old Christian humanitarian organization with programs 
in 100 countries served by a staff of 20,000 people worldwide. 
World Vision is a child-focused organization and, as such, it 
is a witness to the impact of child trafficking and child 
sexual exploitation both here in the United States and in many 
countries abroad. My remarks will focus on the impact of 
trafficking and sex slavery on these, the most vulnerable 
victims, children.
    The practice of human trafficking is as old as slavery 
itself. Each year, nearly 1 million people, predominantly women 
and children, are trafficked from one country to another for 
the purpose of servitude in the commercial sex trade, forced 
labor, or domestic service. It is a problem impacting nearly 
every country on the planet, including the United States.
    Traffickers, pimps and brothel owners target vulnerable 
children, particularly those living in poverty. Each year, 
millions of children fall victim to some form of sexual 
exploitation or abuse. Many of these children are abducted, 
forced or coerced into sexual slavery by strangers, while 
others are sold in prostitution to pay off family debts or are 
forcefully recruited on the streets, where many runaways are 
trying to escape abuse in the home.
    Frequently, children are trafficked out of one country and 
into another, where they are beaten and forced to work in 
brothels. Driven by supply and demand, these abhorrent 
practices comprise a multi-billion-dollar international 
business, and the impact on children is catastrophic--long-
lasting physical and psychological trauma; disease, including 
HIV/AIDS; violence; abuse; drug addiction; unwanted pregnancy; 
malnutrition; social ostracism; poverty; and in many cases 
death.
    Outside of the United States, many factors have contributed 
to the increase in commercial sexual exploitation of children, 
including poverty, inadequate or non-enforced laws, government 
corruption, lack of political will, and the low status of girls 
in many countries.
    Recent growth in the number of prostituted children can 
also be traced to the spread of HIV/AIDS. You see, Mr. 
Chairman, the spread of HIV/AIDS has encouraged predominantly 
local men in developing countries to seek young children for 
sex, with the erroneous belief that children are less likely to 
carry or transmit the disease. As you may know, the opposite is 
true.
    Statistics suggest that the highest concentrations of 
prostituted children are found in Asia and Latin America. For 
example, it is estimated that one-third of the prostitutes in 
Cambodia are children under age 18. In Eastern Europe, Russia, 
Poland, Romania, Hungary and the Czech Republic have 
experienced an increase in child prostitution as well.
    World Vision has learned through its work in many of these 
countries that the average age of a child exploited in the 
commercial sex trade is 14 years old, but some of these 
children are as young as 5 years old. Many of these children 
have acquired sexually-transmitted diseases.
    The practice of child sex tourism wherein men from wealthy 
countries travel to have sex with children predominantly in 
poor countries is especially on the rise in countries in Asia 
and Latin America. This has resulted in a greater supply of 
child victims to meet the increased demand.
    A survey conducted in December 2001 by World Vision and the 
Cambodian government indicates that Westerners, including 
Americans, account for about 38 percent of all child sex 
offenders in Cambodia. In Latin American countries such as 
Costa Rica, estimates are as high as 80 percent. An 
organization called ECPAT, which provides most of the ground-
breaking research on this issue, estimates that 25 percent of 
child sex tourists worldwide are from the United States.
    Mr. Chairman, these statistics, while sobering, do not come 
close to fully revealing the depth of this scourge, nor in 
telling the story of the victims. I am reminded of a 13-year-
old girl that I met in Phnom Penh about a year ago. She was 
sold to a brothel owner because her father desperately needed 
medical care that her impoverished family could not afford. Her 
parents were faced with the nightmare decision to sell their 
child for the money to pay for the medical treatment or the 
father was going to die.
    Closer to home, in 2001 I met a 19-year-old woman from the 
Chicago area who had been prostituted since she was 15 years 
old. Earlier, she was sexually abused at home by her 
stepfather, which caused her to run away. She later met a man 
at a bus station who offered her food and shelter, but she was 
later raped, beaten and forced into prostitution.
    These stories, while shocking, are not unusual. A 1996 
survey of World Vision national offices revealed that 70 
percent of our offices overseas were dealing with some form of 
exploitation of local children. Through World Vision's vast 
network, we have been involved in programming aimed at 
preventing children from being drawn into the sex trade and 
helping those already victimized.
    Our work has focused on prevention programs such as skill 
training designed to prevent children from being sold into the 
sex trade; residential treatment facilities to provide 
exploited children with ongoing medical care, counseling and 
skill training; training of local law enforcement officials; 
and most recently a program that is deterring Americans from 
participating in child sex tourism and assisting U.S. 
Immigration and Customs Enforcement in their work by helping to 
identify child sex tourists from the United States and 
providing key information that can be used in their 
prosecution.
    Fortunately, sir, organizations like World Vision are no 
longer fighting this problem alone. In recent years, the U.S. 
Congress has made several important advancements in 
international trafficking and slavery. The Mann Act of 1910, 
which banned the transportation of prostitutes beyond State 
lines, provides the underpinnings of child sexual exploitation 
law in the U.S.
    The Act was strengthened in 1994 with the passage of the 
Child Sexual Abuse Prevention Act, which was part of the 1994 
crime bill, and most recently by the passage of the PROTECT Act 
of 2003, which imposes a fine and prison sentence of up to 30 
years for any U.S. citizen who is convicted of participating in 
or attempting to participate in child sex tourism overseas.
    One of the most comprehensive pieces of trafficking 
legislation passed by Congress is the Victims of Trafficking 
and Violence Protection Act of 2000. This important law 
contains several strong provisions to both combat trafficking 
and assist victims. All of these measures have not only made 
advancements in combatting international trafficking and 
slavery, but have set a leadership example for the rest of the 
world in addressing these issues.
    Mr. Chairman, in recent years much attention has rightly 
been drawn to the plight of trafficking and sexual exploitation 
victims outside of the United States. However, this problem is 
not limited to poor countries, nor is it limited to 
perpetrations by foreign criminals. The problem is very real in 
the United States, and notably, sir, the exploitation that 
happens outside of the U.S. is made worse through the 
participation of U.S. citizens in sex tourism.
    Research conducted by experts such as Dr. Melissa Farley of 
Prostitution Research and Education and Dr. Richard Estes of 
the University of Pennsylvania have provided the American 
public with just a snapshot of the commercial sex trade in the 
U.S.
    Dr. Estes' research revealed that between 244,000 and 
325,000 American children are at risk of being victimized by 
the commercial sexual exploitation trade every year. Further, 
Dr. Farley's interviews with 130 people working as prostitutes 
in just the San Francisco area revealed a number of things, 
including 82 percent of them had been physically assaulted, 68 
percent had been raped, 84 percent reported past or current 
homelessness. 88 percent truly desire to leave prostitution, 
and 50 percent of these were sexually abused as children.
    All too often, these women and children are exploited as a 
result of difficult circumstances, previous abuse, homelessness 
and other vulnerabilities. Pimps and brothel owners prey on 
people such as these in order to fulfill the demand of their 
customers, known as ``johns.'' The use of the Internet has only 
exacerbated the problem by providing a forum for pornography, 
prostitution on demand and chat boards.
    Markedly, the U.S. Department of State estimates that 
between 14,500 and 17,500 women and children are trafficked 
into the United States annually for service in the sex trade as 
well. The U.S. Department of State, the Department of Justice 
and U.S. Immigration and Customs Enforcement, otherwise known 
as ICE, have made much progress in recent years to combat sex 
crimes against children.
    For example, in the past year more than 3,000 sex offenders 
and predators have been arrested in the U.S. due to the great 
work of Operation Predator, an ICE initiative that has just 
completed its first year in operation. The work of these 
agencies, along with local police, non-governmental 
organizations and many other organizations, should be praised 
for their significant work.
    Needless to say, the opportunity for additional measures to 
combat trafficking and slavery are abundant. In the United 
States, a greater emphasis on preventing women and children 
from being vulnerable to the sex trade, along with increased 
measures to identify and prosecute the abusers themselves, 
including pimps, brothel owners and johns, is greatly needed.
    State and local police need to be better equipped to 
address these issues. Innovative programs such as ``john 
schools'' and amnesty support programs for victims who testify 
against their pimps are needed as well. Cracking down on 
international child sex tourism through better information 
exchange among law enforcement agencies is imperative. And, in 
general, we need to have an increased emphasis on the demand 
side of this problem.
    Finally, sir, your leadership on this issue is greatly 
needed. As you know, a number of non-governmental 
organizations, including citizens groups, faith-based groups, 
feminist groups and human rights organizations have worked with 
this Congress in the past on historic measures such as the 
Trafficking Victims Protection Act, the Sudan Peace Act, the 
International Religious Freedom Act and the Prison Rape 
Elimination Act.
    Organizations and individuals from across the political 
spectrum have found common ground on these very issues, and for 
good reason. These are issues that strike at the core of human 
decency. We stand prepared to work with you.
    Thank you, Mr. Chairman, for your leadership on this issue 
and I would be glad to answer any questions.
    [The prepared statement of Mr. Mettimano appears as a 
submission for the record.]
    Chairman Cornyn. Thank you very much, Mr. Mettimano, for 
your opening statement.
    Professor Mattar. Did I pronounce that correctly?
    Mr. Mattar. That is correct.
    Chairman Cornyn. Good. Thank you very much. You may 
proceed, sir.

  STATEMENT OF MOHAMED Y. MATTAR, CO-DIRECTOR, THE PROTECTION 
    PROJECT, PAUL H. NITZE SCHOOL OF ADVANCED INTERNATIONAL 
      STUDIES, JOHNS HOPKINS UNIVERSITY, WASHINGTON, D.C.

    Mr. Mattar. Thank you, Mr. Chairman. I am really privileged 
to speak to you today on the United States current legal 
responses to combat the problem of trafficking in persons on 
the Federal, State and international levels.
    But, first, according to the official Government 
statistics, there seems to be a decline in international 
trafficking, as well as trafficking into the United States. One 
may question, however, whether this decline in the number of 
trafficking cases is because of recent efforts to combat the 
problem or simply because victim identification has become more 
difficult, as Sister Mary mentioned.
    Recently, the United States has adopted a number of Federal 
laws that address these problems. The significance of these 
legislative measures is that they expanded the rights of 
victims of trafficking. And, to me, the Federal law has 
expanded four main rights--the right to be heard in court, the 
right to civil compensation, the right to receive social and 
economic benefits, and the right to seek residency in the 
United States.
    However, it remains to be seen how courts will interpret 
the provisions of the Federal law. Would a victim of a case of 
trafficking that was prosecuted under the Mann Act be entitled 
to the benefits granted under the Trafficking Victims 
Protection Act? How would the courts define a commercial sex 
act? Would sex trafficking involve cases of mail order brides? 
Would we consider massage parlors, strip clubs and other 
sexually-oriented establishments that may be involved in 
illicit sexual activities as forms of sexual exploitation?
    I understand that such adult expressions are protected as 
free speech under the First Amendment. I also understand that 
they are subject to zoning requirements. But what is more 
important is that States take steps to curtail the activities 
of these establishments when they facilitate acts of 
trafficking.
    I would also like to see an expansion in the interpretation 
of what we consider labor trafficking, especially cases that 
involve child labor. Corporations that are involved in such 
illegal acts must be held accountable. I want to make a 
reference to the newly enacted Trade and Development Act of 
2000 that prohibits importation of products made with the use 
of forced labor.
    On the State level, it is encouraging to learn that, in 
addition to Texas and Washington State, legislators from 
Arizona, Connecticut, Hawaii, North Carolina, Minnesota and 
Florida are considering enacting specific anti-trafficking 
legislation.
    State resources should be used to prosecute cases of 
trafficking, and anti-trafficking legislation in the criminal 
code of a State would make prosecution of a case of trafficking 
easier, instead of struggling to prosecute the case under 
existing laws. This would ultimately have the effect of 
identifying more victims of trafficking.
    However, a number of issues must be resolved in 
establishing the relation between the Federal law and the State 
laws. In addition, State legislation should not be limited to 
the criminalization of trafficking as a crime. The creation of 
a task force that mobilizes efforts to combat trafficking in a 
particular State is imperative.
    Finally, on the international level, the Department of 
Justice has been assisting foreign countries in drafting anti-
trafficking legislation, but at least 62 countries still lack 
legislation that specifically makes trafficking a crime. This 
year, I have been part of a training program that was conducted 
by the War Against Trafficking Alliance, where Shared Hope 
International, The Protection Project and the Department of 
Justice have cooperated in training law enforcement officials 
in the countries of Moldova, the Dominican Republic, India and 
South Africa.
    Prosecution rates in countries of the Middle East, Africa 
and Latin America are still very low, and further efforts are 
needed to not only assist in drafting anti-trafficking 
legislation, but to train investigators, prosecutors and judges 
to effectively consider cases of trafficking.
    Mr. Chairman, thank you so much for holding this very 
important hearing.
    [The prepared statement of Mr. Mattar appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Professor, for your statement 
and your participation.
    Mr. Song, we would be glad to hear from you.

STATEMENT OF CHARLES SONG, STAFF ATTORNEY, COALITION TO ABOLISH 
         SLAVERY & TRAFFICKING, LOS ANGELES, CALIFORNIA

    Mr. Song. Chairman Cornyn, Ranking Member Feingold and 
distinguished members of the Subcommittee, thank you very much 
for the privilege to testify today on behalf of the hundreds of 
survivors of trafficking and their families. I have the honor 
of directly serving as the staff attorney at the Coalition to 
Abolish Slavery and Trafficking and as a member of the Freedom 
Network, a group of 22 community-based organizations that 
provide direct services to survivors of trafficking throughout 
the United States.
    I would also like to thank this administration, Congress 
and the American people for rightfully taking a leadership role 
in the global struggle to eradicate one of the most egregious 
human and civil rights violations known to humankind by 
courageously championing the most advanced anti-trafficking 
legislation in the world--the Victims of Trafficking and 
Violence Protection Act of 2000 and Trafficking Victims 
Protection Reauthorization Act of 2003--which have literally 
saved the lives of hundreds of survivors of trafficking and 
their families.
    As you know, and as Mr. Sutton already discussed, the VTVPA 
and TVPRA provided comprehensive Federal legislation to address 
the problem of human trafficking through a holistic, three-
pronged approach of protection, prosecution and prevention. 
This legislation has dramatically improved the ability of 
prosecutors to punish traffickers, while providing the critical 
protections survivors need to cooperate with law enforcement.
    By creating new trafficking crimes and increasing 
sentencing requirements, these laws ensure that traffickers are 
punished for the full panoply of offenses associated with 
trafficking and given appropriately severe sentences. Most 
importantly, the VTVPA, recognizing that effective prosecution 
of human traffickers requires survivors to risk their lives and 
their families' lives to cooperate with law enforcement 
agencies, provides greater protections for trafficked persons 
by creating new immigration benefits--T non-immigrant status 
and continued presence.
    It also guarantees victims specific services and enumerates 
legal rights that include the right to social services and 
benefits available to refugees, the right to appropriate 
shelter not incompatible with their status as victims of a 
crime, the right to receive medical care, the right to witness 
protection, the right to access information about legal and 
translation services, and the right to mandatory restitution 
and civil action.
    Make no mistake about it, survivors of trafficking risk 
their lives and their families' lives to assist in the 
investigation and prosecution of their former captors, and 
legislators' primary intent in passing the VTVPA was to protect 
victims of those violent crimes.
    Representative Chris Smith, one of the authors of the 
VTVPA, unequivocally confirmed this was the case in his keynote 
address at the State Department Conference on Trafficking in 
February of 2003. Speaking for the American people, he stated, 
``While it was the intent of the VTVPA that victims of 
trafficking should help in the investigation and prosecution of 
trafficking cases, there should be no doubt that the T visa was 
primarily intended as a humanitarian tool to facilitate the 
rehabilitation of trafficking survivors.''
    In narrow circumstances, the VTVPA saves the lives of 
survivors of trafficking and assists them in rebuilding their 
lives, as the American people intended. For example, I am 
pleased to announce that due to the collaborative efforts of 
local law enforcement, the Department of Homeland Security and 
many other dedicated individuals, CAST recently obtained a T 
visa for a woman sold into sexual slavery at the age of 16 and 
later wrongfully imprisoned because of her trafficking 
situation. When she finally obtained a T visa, this woman took 
her first breath of freedom in almost 27 years. Additionally, 
she is also receiving other urgent social and legal services 
through the VTVPA.
    However, nearly 4 years after the enactment of the VTVPA, 
which authorized 5,000 T visas per year, or nearly 20,000 over 
4 years, only 371 T visa applications have been granted since 
2000. Perhaps even more disturbing is the fact that only 34 
children have been identified as eligible for services by the 
unaccompanied refugee minors program as trafficked minors.
    These statistics are extremely disturbing particularly in 
light of the fact that experts have estimated anywhere from 
14,500 to 50,000 men, women and children, just like our own 
sons and daughters, are being trafficked and enslaved in the 
United States every year. What these numbers indicate is that 
survivors of trafficking are not being provided the critical 
protections they need in order to assist in the investigation 
and prosecution of their traffickers, as Congress intended.
    A few weeks ago, I received a phone call from a woman who 
informed me her brother had been tricked into coming to the 
United States and was being physically and illegally forced to 
work. I advised the woman that her brother's life may be in 
imminent danger and recommended immediately contacting the 
proper authorities. I also advised her of the Federal 
protections available to her brother and the legal and social 
services CAST could provide him.
    She asked if I could guarantee he would not be deported or 
if she reported to law enforcement, because he would be 
seriously injured or murdered if he was deported. I told her I 
could not guarantee anything, but based on the information she 
had provided me, he would be permitted to remain here legally 
and provided many other benefits to help him recover from his 
enslavement if he cooperated with law enforcement.
    After discussing these issues further, she concluded the 
telephone call by saying that she was terrified of subjecting 
him to the risk of deportation and would think it over and 
contact me as soon as possible. I never heard from the woman 
again.
    Fortunately, concerned legislators such as yourselves and 
Government officials such as Assistant Attorney General Acosta 
are asking why survivors such as these are not coming forward. 
In my view, United States efforts to combat human trafficking 
and slavery are being thwarted by unintentional yet overly 
restrictive barriers to critical victim protections.
    Relatively speaking, there is tremendous benefit and very 
little risk and cost associated with the United States 
providing life-saving protections and services to human beings 
who have narrowly escaped from violent criminals with their 
lives. Conversely, survivors of trafficking are confronted with 
the highest possible cost and risk--theirs, their parents', 
their siblings' and their children's lives.
    On behalf of the thousands of men, women and children who 
are enslaved in the United States and whose constitutional and 
civil rights are being violated as I speak to you today, I urge 
you to review the critical victim protections contained in the 
VTVPA that were unintentionally drafted too narrowly out of an 
abundance of caution and ensure survivors of trafficking can 
more easily access these protections and assist in 
investigating and prosecuting their traffickers.
    Due to the brief period of time I have to speak with you 
today, I have not discussed the specific legislative amendments 
I am recommending. However, I and other members of the Freedom 
Network would be more than happy to provide detail briefing 
papers on specific recommendations, as well as review these 
important changes with members of the Subcommittee.
    The recommendations include amendments to the threshold 
requirements for benefits, amendments to make it easier to 
protect family and reunite family members with trafficking 
survivors, and the addition of a requirement that trafficking 
survivors have access to legal counsel.
    I look forward to continuing to work with members of 
Congress to eradicate all instances of human trafficking in our 
country and the world, and I am confident that with your 
support, the VTVPA can be amended to more fully realize the 
goals and intentions of the American people when they passed 
the VTVPA.
    Thank you for your attention and for the invitation to 
appear here today. I look forward to your questions.
    Chairman Cornyn. Thank you, Mr. Song, for your opening 
statement, and we will take you up on your offer to give those 
proposals to us and to work with us to look at any changes that 
may be required.
    Mr. Song. Thank you.
    [The prepared statement of Mr. Song appears as a submission 
for the record.]
    Chairman Cornyn. Ms. Patten, we would be glad to hear from 
you.

STATEMENT OF WENDY PATTEN, U.S. ADVOCACY DIRECTOR, HUMAN RIGHTS 
                    WATCH, WASHINGTON, D.C.

    Ms. Patten. Mr. Chairperson and members of the 
Subcommittee, thank you for inviting me to provide testimony on 
behalf of Human Rights Watch. It is an honor to testify before 
you today and we thank you for focusing on this important human 
rights problem.
    For over a decade, Human Rights Watch has documented and 
monitored trafficking of persons around the world. We have 
published reports on trafficking of women and girls from Burma 
to Thailand, Nepal to India, Thailand to Japan, Eastern Europe 
to Greece, the former Soviet Union and Eastern Europe to post-
conflict Bosnia and Herzegovina, and the trafficking of 
children in West Africa. In 2001, we reported on the abuse of 
domestic workers here in the United States with special 
employer-based visas.
    Trafficking flourishes throughout the world, aided by 
corruption and neglect by governments. Seeking better lives and 
opportunities, trafficking victims migrate, only to find 
themselves trapped in debt bondage, forced labor and slavery-
like conditions. The United Nations has estimated that 700,000 
people are trafficked around the world each year, and recent 
U.S. Government estimates are consistent with this figure.
    Both the International Protocol on Trafficking in Persons 
and the U.S. trafficking law cover all forms of trafficking in 
persons. As our research has shown, trafficking occurs for a 
variety of pernicious purposes, ranging from bonded labor to 
forced prostitution. Women and men, girls and boys, are 
trafficked and forced to work or provide services on farms and 
in factories, restaurants, homes, brothels and bars.
    Despite the varied settings into which people are 
trafficked, the common element in all trafficking cases is the 
ongoing violation of the person. The goal of traffickers is to 
exert total control over the victim in order to extract labor 
or services from her. Traffickers around the world use a common 
set of tactics to track their victims in exploitative 
situations--physical force, threats of physical force, 
deception, intimidation, isolation, debt bondage, threats of 
deportation and threats to family members. It is vital for the 
U.S. Government to address trafficking in all of its horrific 
forms.
    Trafficking in persons is in many ways a quintessential 
21st century crime problem. In an era of globalization and 
enhanced technology, small networks of criminals can operate 
internationally, preying on those who would migrate in search 
of work or a better life, and subjecting them to horrible 
abuse.
    As governments map out anti-trafficking strategies, they 
must see this problem not only in law enforcement terms, but 
also in human rights terms. They need to understand that 
trafficking in persons is a serious human rights abuse and that 
governments have an obligation to protect victims and to 
provide redress.
    While much has been done here in the United States, much 
more can and should be done to better prosecute traffickers and 
protect victims of trafficking here in the U.S. I would like to 
focus now on four issues.
    First, the United States should ratify the Trafficking in 
Persons Protocol. Proposed by the United States and Argentina 
in January 1999, this is the first international protocol to 
require governments to criminalize trafficking in persons and 
to provide a framework for enhanced protection of and 
assistance to victims. The protocol establishes a global 
standard for government action, which is particularly important 
given the transnational nature of many trafficking networks.
    The protocol entered into force in December 2003 and now 
has 62 states party and 117 signatories. The U.S. Government 
was among the first countries to sign the protocol in December 
2003, and earlier this year President Bush transmitted the 
protocol to the Senate. The Foreign Relations Committee had a 
hearing on the protocol in June. We urge the Senate to promptly 
provide its advice and consent to ratification of the 
Trafficking Protocol.
    Second, the U.S. Government should enhance its capacity to 
provide meaningful witness protection and victim protection for 
victims of trafficking in the United States. Witness protection 
is a subset of the broader category of victim protection, and 
it is not limited to the safety of witnesses involved in 
criminal proceeding.
    To be sure, prosecution is a core obligation of states in 
protecting the rights of trafficking victims and in holding 
traffickers accountable for their crimes. But despite the 
critical importance of prosecution, it would be a mistake to 
talk about protection for victims and witnesses only in the 
context of testimony at trial. Victims need protection in order 
to break free from the control of their traffickers and to 
avoid falling back into the hands of traffickers. They also 
need a range of support and assistance in order to rebuild 
their lives without fear of reprisal from those who traffic 
them. Specifically, victims need counseling; medical and 
psychological services, including specialized services in 
support for sexual assault; legal assistance; employment 
authorization and training; and safe and secure shelter.
    The U.S. Government should also ensure that all trafficked 
persons are allowed to remain in the U.S. throughout the 
duration of any criminal or civil proceedings against their 
abusers and ensure full implementation of measures that enable 
victims who fear retaliation upon return to their home country 
to apply for permanent resettlement on that basis. In 
particular, it should ensure that victims who fear retaliation 
can seek to remain in the United States even if they are unable 
to comply with law enforcement requests for assistance. The 
Government should also ensure special protections for child 
victims of trafficking who are under the age of 18. In 
emphasizing the witness protection issues today, I want to 
emphasize a crucial reality. Governments cannot effectively 
fight trafficking unless they develop and implement 
comprehensive protection policies and programs.
    Third, the U.S. Government should expand and intensify its 
efforts to train Federal law enforcement, prosecutors and 
victim witness personnel, and to conduct outreach to State and 
local police, prosecutors and service providers. Such training 
and outreach is critical in identifying trafficking victims and 
in ensuring that community-based networks are established to 
provide support for victims when a case occurs.
    Proactive community-wide work is needed before Federal 
prosecutors or local police encounter a large trafficking case 
with multiple victims who have urgent needs for shelter and 
services. This kind of effort echoes a key recommendation that 
the Department of Justice itself made in its June 2004 
assessment of U.S. activities to combat trafficking in persons. 
Its efforts to expand training and local task forces are 
necessary steps that we urge the U.S. Government to undertake 
in a comprehensive and sustained way.
    Fourth, the Senate should not enact the Homeland Security 
Enhancement Act which would have serious consequences for 
trafficking victims and for trafficking investigations and 
prosecutions. If enacted, this bill and its House counterpart, 
the CLEAR Act, would require State and local officials to 
enforce Federal civil immigration laws, which would in turn 
deter trafficking victims from contacting local police about 
the abuses they had suffered.
    Finally, the United States should above all else return 
control to the victims of trafficking. The greatest challenge 
for governments around the world is seeing and respecting at 
the most basic level the humanity of all survivors of 
trafficking, and therefore working with survivors in a way that 
demonstrates their commitment to protecting the equality and 
dignity of all human beings. Because violation of human dignity 
lies at the core of trafficking in persons, the affirmation of 
the dignity of trafficking victims must be at the center of any 
effort to address and solve it.
    To conclude, trafficking in persons is a profound human 
rights abuse, and women are particularly vulnerable to this 
practice due to the persistent inequalities they face in status 
and opportunity. With the passage of domestic legislation and 
the entry into force of the International Trafficking Protocol, 
important advances have been made in developing a framework for 
action.
    Governments now need to take concrete steps to prevent 
trafficking, punish traffickers and provide human rights 
protections for victims. It is imperative that the United 
States demonstrate its leadership on this critical human rights 
issue by doing all it can to provide protection and redress for 
victims of all forms of trafficking here in the United States.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Patten appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Ms. Patten.
    We appreciate all of the opening statements. We will 
proceed to a ten-minute round of questioning and I will begin.
    Mr. Sutton and Mr. Shelby, I would like to direct this to 
both of you. First of all, I understand the distinction between 
trafficking and smuggling, but it seems to me that many of the 
problems that we are talking about--that is, people operating 
in a lawless environment--is what makes victims of human 
trafficking the most vulnerable, and that a lot of the concerns 
that we have about border security post-9/11, concerns we have 
about drug trafficking into the United States, money 
laundering--you can go down the whole list--that this is 
another element of that and maybe something that we can't 
totally separate and look at as an isolated sort of problem.
    I would be interested in your reaction and comments. First, 
Mr. Sutton, and then Mr. Shelby.
    Mr. Sutton. Thank you, Mr. Chairman. Again, thank you for 
the opportunity to be here today to address this. I think you 
are exactly right. As you listen to all these witnesses and the 
statistics and the numbers, you realize that this is a big 
problem. The Department of Justice takes it seriously, the 
President takes it seriously. It is a priority for us, but 
obviously we need to do more.
    The real difficulty in these cases is identifying the 
victims. Usually, we find about them--someone will call 911, or 
a lucky break; someone runs away. But like we have said over 
and over again, these victims often don't speak the language. 
They are usually far from home, like that example. I can't even 
think of a worse scenario to be a 16-year-old Mexican girl from 
a small village in Mexico, brought to America with who you 
thought was a trusted family friend, a women who was going to 
be like your mother, and then she gets you here thousands of 
miles from home and turns your life upside down in the most 
horrific of ways.
    What I can say is hearings like this matter. It is 
important that we educate law enforcement, that we get the NGOs 
and law enforcement together to work together to identify these 
cases, because oftentimes we may see something going on and not 
recognize at the time that it is a trafficking case because it 
is under the surface. They keep this very quiet, but somebody 
is making a lot of money in this. And in my mind it is not that 
different than any organized crime, other than it is so much 
more horrific to the victims.
    I think you are exactly right. We need to look at it an in 
overall way of protecting the border, having secure laws and 
enforcing our laws, and getting cooperation at the Federal, 
State and local levels.
    Chairman Cornyn. Mr. Shelby, I would be interested in your 
response.
    Mr. Shelby. Mr. Chairman, I agree that the most effective 
way to approach this would be through a task force concept. And 
I don't say that believing that task forces are necessarily a 
panacea for all kinds of investigative approaches, but because 
within that task force element is this notion of education, 
where you bring in a number of different people to look at 
facts that they may see before them everyday, but not realize 
what it is that they are looking at.
    In the area specifically of human trafficking, there are no 
victims making outcries. They are not allowed to by the very 
nature of the crime itself. But there are indicia that those 
people are being victimized, and if we can pick up on that 
through the education of the State, local and even the Federal 
agencies who see those indicia but don't realize them for what 
they are, then I think that we can have a significant impact.
    But I would also--and you and I have had this discussion in 
Laredo--I would also urge you to look at these as two separate 
crimes, because in the trafficking-related offenses the offense 
itself is clearly a victimizer against a victim. An 
individual's rights are being violated and being subjugated for 
the purpose of some sort of financial gain.
    But in a smuggling scenario, typically, the smugglee, the 
person who wants entry into the United States, is himself part 
and parcel of this. He wants the smuggler to succeed, he wants 
to be part of a successful effort to enter into the United 
States. Although they certainly can be victimized at some point 
during a smuggling operation gone bad, those people are not 
traditionally victims in the same sense.
    I don't think, in fairness, they should be treated as 
victims because really what it would do is encourage everyone 
to participate in a smuggling operation as a smugglee and then 
claim the protections of some specific Act that is designed for 
people who are more closely victimized.
    Chairman Cornyn. Thank you.
    We have heard from a number of you about the importance of 
having cooperation not just at the Federal level. The 
Department of Justice is to be congratulated, and I think 
everyone here did, for the leadership that has been shown from 
top to bottom and where the rubber meets the road, where you 
gentlemen and your staff operate.
    But, it seems like we have got to do something to get local 
and State law enforcement more involved. I know, because I have 
participated in hearings, that getting local law enforcement 
involved in immigration-related matters is somewhat 
controversial. As a matter of fact, Ms. Patten mentioned one 
bill that suggests that State and local law enforcement 
officers get involved in perhaps apprehending people who are 
here illegally in the country.
    So, I would just maybe ask you, Ms. Patten, how do we get 
State and local officials involved unless we enact some sort of 
legislation that authorizes them, or at least authorizes them 
to enter into memoranda of understanding to investigate and 
pursue these crimes?
    Ms. Patten. Well, I think that the approach that the 
Department has taken and that has been outlined today by the 
U.S. Attorneys in terms of creating local task forces or local 
cooperation is really incredibly important, and it is one that 
I am glad to see is being furthered and expanded.
    We already see that many local law enforcement on the 
ground have an understanding of what this problem is. They may 
vary in terms of whether they are familiar with all of the 
language that describes it, or know it as trafficking in 
persons or understand that there is a Federal law. But they see 
and live with the on-the-ground reality of how these traffic 
networks operate in their communities, and in my experience 
they are often eager to learn about and coordinate with Federal 
officials in order to help support and in many ways plug gaps 
in their ability to really address the problem.
    I recall speaking with local law enforcement who understood 
that they might be able to deal with a couple of victims that 
they found working on a street corner in one city in the 
Midwest. But they knew that three weeks later, there would be 
other victims to come and replace them and they wanted some way 
to address the broader network that was involved.
    So I think that the kinds of cooperative efforts that have 
been described are really, really important in terms of 
bringing together all the players in a community who have a 
piece of this, from local law enforcement to victim service 
providers with a range of different kinds of expertise, to 
those who understand linguistically- or culturally-appropriate 
services for the victims in question, as well as the local 
offices of the Federal Government--the FBI, the INS, the U.S. 
Attorney's office, et cetera.
    So, I think the way to do is to pursue more of that kind of 
training and outreach work so that we raise awareness of the 
problem and people learn who to work with in their local 
communities when they see a case.
    Chairman Cornyn. So, let me see if we are on common ground 
here. Would you have any concerns about local and State law 
enforcement officials being authorized or allowed to enter into 
memoranda of understanding for purposes of perhaps 
investigating and prosecuting violations of the Trafficking 
Victims Protection Act, or obviously State statutes against 
human trafficking?
    Ms. Patten. Well, as I have already explained, we have 
concerns about deputizing local law enforcement with enforcing 
immigration violations. We have sent a separate letter to all 
of the members of the Committee with our concerns about the 
CLEAR Act and the HSEA. We have broader concerns that they will 
go beyond the trafficking problem, but for purposes of this 
hearing I wanted to focus on the concerns we had about how 
doing that would impact the broader immigrant community, and in 
particular victims of trafficking. In terms of local law 
enforcement collaborating on Federal prosecutions of 
trafficking, I think that can be helpful especially when local 
police may have done some of the initial investigative work.
    Chairman Cornyn. Well, I guess my concern is maybe a local 
police officer or highway patrol who makes a traffic stop and 
identifies someone who is not legally in the country who may be 
in a situation where they have been unable or simply afraid of 
reporting a violation of human trafficking laws. So, it seems 
like the line gets a little fuzzy.
    Let me ask for a quick reaction from the rest of the panel 
who I have not had a chance to ask questions of yet. We have 
heard estimates of the number of people in this country who are 
victims of human trafficking, but I wonder how in the world we 
have any confidence in those numbers, given the nature of the 
crime and given the reluctance of the victim to come forward.
    Sister, do you have any observations along that line?
    Sister Dougherty. I share your reservations about the 
credibility of the numbers. Nevertheless, they are the numbers 
we have in terms of State Department reports, and they do the 
research.
    It is interesting to me that in 1999, the study that was 
put out by the State department--I think it was commissioned by 
the CIA of Amy O'Neill Richard as an independent researcher--
that study that was behind the passing of the law said 50,000 
people. And 2 years later, we drop from 50,000 people to 20,000 
people, and now we have dropped from 20,000 people to 17,000 
people being trafficked into the United States.
    When we questioned the State Department about that radical 
change in numbers, their response last June at the issuing of 
the TIP report was that there has been a change in methodology. 
I don't know exactly what that means, but I think it is safe to 
say that the numbers are certainly underestimated. And I can 
guarantee you that 34 identified children in the United States 
is certainly nothing--the estimate of every credible analyst in 
terms of children is that at least a third of the people 
trafficked into the United States are children. So that, by 
anybody's numbers, would increase those radically.
    Chairman Cornyn. Professor Mattar, you specifically 
mentioned the apparent decline.
    Mr. Mattar. Yes. I have a problem with the Government 
statistics. When the Trafficking Victims Protection Act passed 
and was signed into law on October 28, 2000, Section 102 
referred to 700,000 victims of trafficking being trafficked 
globally and 50,000 being trafficked into the United States.
    This last year, in 2003, the State Department told us, 
well, the number now is between 800 to 900, and in the United 
States between 18,000 and 20,000. This last report made 
reference to 14,500 to 17,500 trafficking victims into the 
United States, and between 600 to 800 annually. I am not sure 
that we have a reliable basis, a credible basis for this 
number.
    That is why I want to bring to your attention that the 
reauthorization Act calls for conducting research, and I think 
that we have to do more research to find out what are the exact 
numbers we are talking about here so we can define the 
appropriate responses.
    Chairman Cornyn. Thank you.
    Mr. Mettimano.
    Mr. Mettimano. I share the frustration with my colleagues, 
but after working on these issues for 10 years, I have come to 
the conclusion that hard numbers pertaining to any aspect of 
this crime simply do not exist. And the reason is this, because 
it is largely a black-market crime that does not readily lend 
itself to conventional measurement. It is like asking how many 
spouses in the United States are battered. It is not like 
people stand up to be polled. Much of this goes unreported.
    I have found that the diversity and the range of estimates 
on everything from the number of trafficking victims to the 
number of children that are involved vary greatly from agency 
to agency. The only consistency that I have seen typically 
either on an international basis or on a country-by-country 
basis is going to be the ratio. I find some level of 
consistency in the ratio of children that are involved in the 
sex trade.
    As far as the overall numbers, though, sir, I think just 
because of the nature of the crime and often because it goes 
largely unreported, it is very difficult to come up with hard 
numbers.
    Chairman Cornyn. My time is up, and at this time I will 
recognize Senator Durbin for any questions he may have.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Mr. Chairman, and thank you for 
this hearing. I just have a couple of questions, and thank you 
all for your testimony. I am sorry I was in the Senate 
Intelligence Committee and had to come a little late, but I 
have reviewed your testimony.
    First, let me say that I think it is worth noting that the 
first time that this issue was raised on the Senate floor was 
by our late colleague, Paul Wellstone, who really was outspoken 
on this issue. I am glad that we are continuing our efforts to 
look into it.
    I also want to note that John Miller, a former colleague of 
ours from the House of Representatives, is now heading the 
State Department's anti-trafficking office, and I met with him 
to talk about some efforts underway there. I think he is a very 
talented individual and I hope to work with him.
    Going back to your point, Mr. Mettimano--I hope I didn't 
mispronounce your name--I look in your testimony at all the 
range of people trafficked in the United States. The estimates 
range from 14,500 to 50,000, depending on which one of your 
statements we stick by, and I think you get to the point that 
when you are dealing with black market, you just don't have 
easily quantifiable numbers to deal with here.
    But some things are quantifiable. From the U.S. Attorneys, 
we have heard that there have been 110 prosecutions over a 3-
year period of time, which pales into insignificance if any of 
the numbers, if any of the estimates are correct. We also know 
that there were 591 immigration hearings in the year 2003 
relative to these problems, which again is a very, very small 
number compared to any of the estimates before us.
    And then the point made by Mr. Song about the T visas that 
have been issued, 371 over a 4-year period of time, suggests 
that perhaps we aren't being as aggressive as we could or 
should be. Maybe it is for lack of resources. Maybe it is for 
lack of legal authority. I am not sure which, but I am just 
curious at this point and I would ask the U.S. Attorneys, in 
particular, it seems that several witnesses have identified 
strip clubs, massage parlors and that sort of activity as a 
magnet for a lot of these trafficked victims who are exploited.
    Is that your experience, and if so, what are we doing about 
it?
    Mr. Sutton. Thank you, Senator. I agree with you. I mean, I 
think the improvement is we have dramatically increased 
prosecutions. But when you look at the overall numbers, they 
are very low, and that is one of the reasons we are here today 
is to try to give attention to this problem to say we need to 
know about these cases to prosecute them.
    Our experience has been that they are very hard to detect. 
You weren't here when I gave the example, but we had an example 
in one of the cases we had in our district where a woman 
traveled deep into Mexico to remote villages and would convince 
parents of teenage girls, 16-year-olds, that she was going to 
take care of their daughters, take them to the United States, 
have them working in a restaurant, get a better life. She even 
signed a contract to that effect that, you know, there would be 
a 1-year deal that would pay off the $1,500 smuggling fee. And 
then when they got way out of sight to Texas, they would turn 
it around and force them to have sex with up to 15 men per day.
    Along with that, those girls, who were again 16, didn't 
speak English, far away from home, are being threatened that if 
you run away or if you speak out, we are going to kill you; and 
not only are we going to kill you, we are going to go back to 
your village and kill your family.
    So they are very, very difficult situations to find about 
because these girls are held in just terrible situations. 
Usually, someone calls 911 who sees a situation in a house or 
a--
    Senator Durbin. It is a lot like the discussion on 
narcotics. I am talking about the demand side at this moment. 
If we know that they are being used for sexual purposes in the 
United States, I am asking you as prosecutors, are you focusing 
on that in terms of your investigations to try to discover this 
illegal trafficking here?
    Mr. Sutton. Sure. I mean, we try to identify those people 
as much as possible. There is renewed emphasis on sex tourism, 
renewed emphasis on getting--Senator Cornyn has an idea to get 
these task forces organized around the country, which we think 
is a very good one. But it is really getting that information 
out and sort of breaking the mind set of some law enforcement.
    A lot of this happens at the local level. I mean, at a 
local level they are dealing with street prostitutes, dealing 
with situations like when they see that, and they may not 
recognize that you are arresting what you think is a prostitute 
when, in reality, it is a slave. That is why it is so important 
that we have hearings like this that get that information out 
and that we work together to educate local law enforcement and 
the NGOs to identify these folks, because once we have got them 
identified, we are going to bring both feet of the Federal 
Government down on their heads.
    Senator Durbin. My time is limited. I want to go to the 
supply side for a moment. One of the articles which I read on 
the subject which really caught my eye was in the New York 
Times Magazine several months ago. It was a front-page story 
about a situation involving Mexico, with photographs and 
graphic detail. I then coincidentally met with some Congress 
men and women--senators, I suppose, from Mexico--gave them the 
article and said what are we doing; what can we do together?
    Can I ask you, any on the panel who would like to respond, 
what can or should we be doing about Mexico that we are not 
doing now? Are they taking this situation seriously? Are they 
dealing with the problem? Are they cooperating with us in the 
prosecutions? Should we be doing more to develop a more 
aggressive posture by both countries?
    Mr. Shelby. Senator, I would like to address that if I 
could. I guess immediately after General Ashcroft came into his 
position, there was a tragedy in Phoenix, Arizona, or the 
southern part of Arizona where I had worked, where 14 aliens 
died in the desert that were being led in. They weren't being 
trafficked in. They were people who were being led and were 
ultimately led astray. That was one of the most horrible 
tragedies up to that point in time until the situation in 
Victoria a year-and-a-half later, where 19 people died in the 
same way.
    If any good came out of those very horrible situations, it 
was that the Mexican government reached out to us to help us 
investigate thoroughly not only those specific instances where 
there was this singular loss of life, but also a number of 
bridges were created to help us with the overall problem of 
smuggling individuals, both consensually smuggled individuals 
and ultimately individuals who are not consensually smuggled 
into the United States.
    So we have forged new relationships with this Mexican 
administration and they have shown a cooperation to engage us 
in that way that was not present in the preceding 14 years of 
my Federal practice as an Assistant United States Attorney.
    Senator Durbin. Thank you.
    Sister, did you want to comment on that?
    Chairman Cornyn. Sister, if I could just ask your 
indulgence just briefly.
    Colleagues, as I mentioned, I am going to have to leave to 
go preside on the Senate floor, but I know Senator Durbin and 
Senator Schumer have additional questions and what I would like 
to do is turn the gavel over to Senator Schumer for purposes of 
each of them asking the questions they would like to ask, 
making any statement they wish, and then closing out the 
hearing.
    Senator Durbin. You are a very trusting Chairman to turn 
the gavel over to the Democrats.
    Sister?
    Sister Dougherty. About a month ago, I was in Rome and I 
was there doing trafficking business for my organization, 
specifically speaking at a conference to the U.S. Embassy to 
the Holy See, but also I took the time then to get around to 
the safehouses in Rome where victims of trafficking are housed. 
Many of them are from Eastern Europe.
    I talked to the people who run the houses about what is 
happening, and Rome has developed--and perhaps all of Italy, 
but certainly out of the Rome Coalition Against Human 
Trafficking, part of their training is automatically to go to 
Romania and do training, to go to countries that are feeding 
the trafficking in their own country.
    It may be legally naive on my part to think that we could 
do some of that with Mexico and Central America, particularly 
with so many victims coming from there, and that it could be 
built into part of the whole grant process; that that in itself 
could be a major effort on our part to train from a U.S. point 
of view with the collaboration of those governments.
    Senator Durbin. Thank you.
    Mr. Mattar. I just want to add that Mexico is one of the 62 
countries that does not have specific anti-trafficking 
legislation. The Department of Justice has been assisting 
countries to enact good laws on trafficking. Especially in 
light of the good relations between Mexico and the United 
States, I think we should go there and help them put together a 
good law that defines the crime of trafficking in a better way.
    Senator Durbin. Thank you very much.
    Mr. Song, did you want to say a word?
    Mr. Song. I just wanted to add very quickly that I have 
been working on a few trafficking cases with the Mexican 
government, specifically with the Mexican consulate in the L.A. 
area, and they have been very helpful. They assisted us in 
getting victim protection.
    Some of our clients' children are still in Mexico and being 
threatened by traffickers and they have been very helpful. The 
First Lady of Mexico even sent a letter regarding another case 
of trafficking that we are working on. But they still need to 
do more especially in regard to Mexican children who are being 
trafficked into the United States and being brought over the 
border and being summarily returned.
    Thank you.
    Senator Durbin. Thank you very much.
    Mr. Chairman, I ask that my opening statement be made part 
of the record.
    Senator Schumer [presiding.] Without objection.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Well, thank you, and I want to thank the 
witnesses for comprehensive testimony and questions. I will 
read a brief statement that I have. Only one of my questions 
hasn't really been addressed. So I will ask you that and then 
we will let you all go on your way.
    But, first, I wanted to thank Senator Cornyn for holding 
this hearing and shining a spotlight on this important issue. 
As we all know, human trafficking is a serious problem. It is 
getting worse. According to the State Department, 600,000 to 
800,000 people are trafficked across national borders into 
slavery each year, and then another 2 to 4 million victims are 
trafficked within national borders.
    The plight of those trafficked is among the most horrible 
we can imagine, and many are young girls, beaten, abused and 
sexually assaulted. Their lives will never be the same. The 
lack of protection against HIV/AIDS means that many sexual 
trafficking victims are, in effect, receiving a death sentence. 
When I read the stories of what happens to these young girls, 
it sickens me to imagine that anyone's daughters would ever 
have to suffer these horrors.
    This is one of those problems we would like to think can't 
happen here, maybe somewhere far away, not here in America. 
Yet, the sad fact is that approximately 16,000 people here, 
again mostly children, are trafficked into the United States 
each year. Their dreams are turned into nightmares right in our 
own backyard.
    So too often this isn't a problem simply of a few bad 
apples. In many places in the world, corrupt police and justice 
systems protect traffickers and allow them to continue to 
traffic human beings into other countries, including ours. A 
problem like this can't be solved easily. It is embedded in the 
system and we have to take action to make sure that sexual 
trafficking and slavery of any kind is not permitted in any 
corner of the world.
    A few weeks ago, I met, as Senator Durbin did, with 
Congressman John Miller. He is head of the Trafficking in 
Persons office at the State Department and we talked in-depth 
about this issue, where we stand right now and how we can all 
work together in the future to advance this issue.
    The State Department recently released the 2004 Trafficking 
in Persons report. The stories of the victims told in that 
report are extraordinary, and it is hard to imagine the 
terrible wrongs these victims have endured. But they also 
embolden us to continue this fight to try and stop more sons 
and daughters from being trafficked.
    So I am proud to join Senator Brownback as the Democratic 
cosponsor of the Trafficking Victims Protection Reauthorization 
Act of 2003. We were able to stand together in a bipartisan way 
to combat this evil. So frequently, we find ourselves at odds 
with one another on this Committee and in the Senate. Our 
efforts on this issue show we can work together to protect some 
of the most endangered people in our world.
    We have accomplished some important goals in the fight 
against human trafficking legislatively in the past year. We 
have elevated the importance of the issue by making the head of 
the TIP office an ambassador-at-large. We have created a senior 
policy operating group to help different agencies work on this 
issue. We have given prosecutors new tools to help fight 
against this crime in the U.S. and we have authorized money to 
help fund this fight and work toward eliminating sexual 
trafficking in all corners of the globe and in our backyard.
    That said, it is clear that there is much more to be done 
and I look forward to working with all of you on this issue. If 
you need tools in this fight, let us know and we will do 
everything we can to get them for you. Finally, I want to thank 
every one of you for the work you have done and for appearing 
before the Subcommittee to share your stories and insights on 
this important issue.
    Again, the questions have been good and comprehensive. Let 
me ask one or two here.
    First, currently, less than 2 percent of the T visas for 
the victims of trafficking that can be issued are actually 
being issued. Yet, we know from State Department figures that 
tens of thousands of trafficking victims are never identified 
and given T visas. What can we do to improve our ability to 
identify and distribute T visas to those who need them most?
    Mr. Song.
    Mr. Song. I will take that. Regarding my testimony, it 
primarily focused on getting the victims the protections. We 
can't identify them if they are not coming forward, if we are 
not running into them. For me, what strikes me as so difficult 
is there are such difficult requirements for people to get 
benefits under the TVPA.
    I understand why Congress initially drafted some of the 
language in the TVPA, but I currently believe that it is overly 
restrictive. There are too many barriers in place. There are 
four very difficult requirements for trafficking victims to 
meet in order to get T visas and it makes it extremely 
difficult for them.
    What we need to do is provide protection so that they can 
have the services so that they can be able to cooperate in 
investigations and prosecutions. We are asking them to first 
cooperate in investigations and prosecutions, and then we might 
give you the protections or you will get them later. But the 
situation is they can't do it without some of these protections 
and services. If we can get them the protection and let them 
know that they are safe and their families are safe, then they 
will come forward and they can help us in investigations and 
prosecutions.
    Senator Schumer. Does everyone agree with that? T visa 
requirements should be loosened a little bit?
    Mr. Shelby. Senator, may I?
    Senator Schumer. Yes.
    Mr. Shelby. While I certainly agree that we should 
encourage and do everything that we can to encourage the 
victims of these trafficking offenses to come forward, I think 
your question really is how do we get more T visas into the 
hands of the victims. That is the same question that we face on 
the law enforcement side about what can we do to encourage 
victims to come forward.
    I am convinced that if they come forward and if we are able 
to identify who they are, the T visas will follow because it is 
in the best interest of the individual victim, and ultimately 
the prosecution, to have those individuals ready and available 
to testify.
    The problem is getting the victims to come forward or 
having some independent party identify them as victims in the 
first place. That is why I believe that this concept of 
educating the local, State and our Federal counterparts in what 
to look for when they inevitably run across individuals whom 
they may first view as isolated victims, but are, in fact, 
victims of a trafficking offense--basically, human slaves--that 
educational component is essential to this. I am convinced that 
once those people are identified, we will go through the 
process, as we have on 500-plus occasions, to get them the visa 
to stay here and help us with the prosecution.
    Senator Schumer. Mr. Song is saying that one of the things 
that holds people back from coming forward is the requirements 
in the T visa. You believe it is other things, the obvious 
kinds of things?
    Mr. Shelby. Yes, sir. I believe it is the same things that 
hold any person, even a voluntary smugglee, from coming forward 
if they are victimized in another way in the United States 
after their smuggling has been successful. They don't want to 
run the risk of being deported.
    Senator Schumer. Professor Mattar.
    Mr. Mattar. I just want to make the case that I am not sure 
that we need to reexamine the Act itself or the reauthorization 
Act. I think what we should do is interpret the Act in a way 
which is friendly to the victim. Why? Because the Act never 
really required the victim to come forward and testify.
    Senator Schumer. Right.
    Mr. Mattar. The Act says, well, a victim has to come 
forward and show willingness to comply with a reasonable 
request in the prosecution or in the investigation of a case of 
trafficking. In fact, under the reauthorization Act, no longer 
is a victim required to go to a Federal law enforcement 
official; a State official is enough.
    Under the reauthorization Act, a child who is under 18 does 
not even have to cooperate at all. So I think it is a matter of 
interpretation, not a matter of a problem with the Act itself.
    Senator Schumer. Yes, Ms. Patten.
    Ms. Patten. I would just add that I think we are talking 
about two different kinds of outreach here, and that goes to 
the question of how do we find more cases. One is conducting 
outreach to those in law enforcement, State and local 
prosecution, and then the broader community who can identify 
trafficking cases that are existing in their community. And 
that is obviously very important, in large measure for the 
reason you alluded to in your testimony that we have had to 
overcome a certain amount of disbelief, I think, that modern-
day slavery exists here in the United States.
    But, secondly, also is the question that Mr. Song raised 
about how do we reach the victims themselves so that they feel 
protected and safe enough to come forward. And the ease, or 
lack thereof, with which they can access protections is 
certainly going to be part of that.
    This is a difficult challenge, but the victims will need to 
understand that trafficking and slavery are illegal in this 
country and that they have legal rights, and that they can 
access those protections particularly through trusted 
community-based organizations whom they can go to who can help 
explain to them how this works.
    Senator Schumer. Anyone else on that? Mr. Song, go ahead.
    Mr. Song. I just have a short response. While I understand 
the argument for the reinterpretation of the Act, I will just 
give you one example. There is an unintended consequence by the 
law enforcement cooperation requirement. When an immigrant is 
detained and put into proceedings, and most trafficking victims 
have no defense to removal, they are actually required to 
cooperate with law enforcement, whether they want to willingly, 
or they will be deported back to their country, to their 
traffickers, to serious injury or death.
    What is perverted or strange about that is that this is 
exactly what the traffickers threaten against them when they 
say, if you don't work for me, if you don't stay for me, I am 
going to send you back to your home country where we are going 
to have our way with you or your family.
    This is an unintended consequence, but if they are put in 
detention and removal proceedings, DHS has no choice but to 
remove them from the country if they have no defense to their 
deportation. So these victims are placed in this situation 
where they are literally being legally coerced into cooperating 
with law enforcement and it is simply not necessary.
    You can imagine, if you have been enslaved and raped and 
beaten by people, you are going to be the first one to line up 
to want to testify and want to investigate and prosecute 
somebody. We don't need to coerce them. We don't need to make 
it a requirement that they cooperate. These people want to; 
they just need to be safe and they need to be protected first. 
So I respectfully disagree and still believe that there are 
certain problems with the Act, such as that one.
    Senator Schumer. Anyone else?
    Well, I want to thank all of you for your testimony on a 
very important subject that we have to focus more on.
    I am going to ask unanimous consent, which means me, I 
guess, that the record be open for one week for written 
questions to be submitted to our witnesses.
    Thank you. The hearing is adjourned.
    [Whereupon, at 4:11 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
